                                            UNCLASSIFIED

                        MEMORANDUM REPORT 01-IT-M-017
                    DEPARTMENTWIDE WEB SITE MANAGEMENT
                          NEEDS TO BE STRENGTHENED
                                  March 2001

In response to requirements of Section 646 of the Treasury and General Government
Appropriations Act, 2001, the Office of Inspector General conducted a review of Internet
privacy management at the Department of State. This report focuses on the Department’s
practices regarding the collection of personally identifiable information through the use
of “cookies”1 and other means on its public web sites.

Specific objectives of our review were to (1) identify the Department’s policies and
procedures for managing its Internet web sites in accordance with Federal guidance, (2)
determine whether the Department’s web sites use or have entered into third-party
agreements concerning the use of cookies, and (3) determine whether all of the
Department’s major web entry points have privacy statements posted that adequately
reflect what, if any, personal information is collected on the web sites and how that
information is used. In addition, during the course of our review, we examined the
Department’s structure for managing web sites and ensuring Internet privacy
organizationwide. We have included a discussion of these issues and related
recommendations in this report.

RESULTS IN BRIEF

The Department of State has become increasingly reliant on the World Wide Web as a
means to inform the public about its activities and services, both here and abroad.
Toward that end, the Department is instituting policies to ensure that its web sites are
managed in accordance with Federal privacy guidelines prescribed by the Office of
Management and Budget (OMB).

The Department’s policies restrict the use of persistent cookies on its public web sites
without the Secretary’s approval. Cookies are a typical means of collecting personal data
on Internet sites, often without the site visitors’ awareness. Despite the restriction, we
found that 9 of the 206 web sites that we identified in the Department are using persistent
cookies without proper authorization. Further, 116 of 206--well over half of the
Department’s sites that we reviewed--had no privacy statements and therefore no means
of advising users of any information collected on the sites. We found no evidence that
the cookies were used to collect personally identifiable information.


1
 A cookie is a small text file placed on a site visitor’s computer hard drive by a web server. A cookie
allows a server to recognize returning users, track online purchases, or maintain and serve customized web
pages. A cookie also facilitates the collection of personal information, such as extensive lists of previously
visited sites, e-mail addresses, or other information to identify or build profiles on individual site visitors.
These problems resulted in part from the Department’s highly decentralized approach to
web site management, in which numerous organizations share responsibility for guiding
or controlling various aspects of Internet management. The Department recognizes that it
needs to strengthen web site management across the organization and, as a first step, has
established a permanent, senior-level Internet Steering Committee. We recommend that
the Department go even further, and establish an Internet Program Office within the
Office of the Under Secretary for Public Diplomacy and Public Affairs to support the
Internet Steering Committee in overseeing and coordinating web sites on an agencywide
basis.

BACKGROUND

Rapid innovations in technology in recent years offer increasing opportunities for the
U.S. Government to improve the quality of information and service that it provides to its
citizens. The World Wide Web, also known as the Internet, has emerged as a powerful
tool for communicating large amounts of information on Federal activities, policies, and
programs. At the same time, however, the Internet has made it possible for web sites to
track and collect personally identifiable data2 from site visitors, making online privacy
one of the key and most contentious issues in this information management age.

Internet cookies are a principal means by which web sites can collect personal
information from site visitors, often without the visitors’ knowledge or consent. There
are two types of cookies—“session cookies” and “persistent cookies.” Session cookies
are short-lived, used only during a single browsing session, expire when the user quits the
browser, and consequently do not raise privacy concerns. Persistent cookies track
information over time or across web sites. They remain stored on visitors’ computers
until a specified expiration date and can be used to collect information, such as a visitor’s
areas of interests and individual browsing habits. Persistent cookies may raise the
public’s apprehension about what information is collected and how it could be used.

The full potential of the Internet to help improve Federal service cannot be realized until
U.S. citizens are confident that their online privacy will be safeguarded. Recognizing
this, and building on principles established by the Privacy Act of 1974
(5 USC 552a) and related legislation, the U.S. Government has recently taken steps to
help ensure the privacy of visitors to Federal web sites. Specifically, over the past 2
years, OMB issued guidance that establishes the U.S. Government policy for the use of
cookies on department and agency public web sites.3 Taken together, the OMB guidance
directs that Federal web sites, and contractors operating web sites on behalf of Federal

2
 Personally identifiable data includes an individual’s name, e-mail address, postal address, telephone
number, Social Security number, or credit card number.
3
 The OMB guidance includes (1) Memorandum M-99-18, Privacy Policies on Federal Web Sites, June 2,
1999, (2) Memorandum 00-13, Privacy Policies and Data Collection on Federal Web Sites, June 22, 2000,
and (3) a letter from the Administrator, OMB Office of Information and Regulatory Affairs, to the Chief
Information Office, Department of Commerce, September 5, 2000, clarifying the previously issued
guidance.



                                                                                                         2
agencies, should not use persistent cookies on the web sites unless they provide clear and
conspicuous notice of those activities and meet the following conditions: (1) a
compelling need to gather the data on the site, (2) appropriate and publicly disclosed
privacy safeguards for handling of information derived from cookies, and (3) personal
approval by the head of the agency. The OMB guidance further exempts Federal use of
session cookies from these requirements.

PURPOSE, SCOPE, AND METHODOLOGY

Section 646 of the Treasury and General Government Appropriations Act, 2001, directs
all Inspectors General to report on their respective agencies’ practices to collect any
personally identifiable information from their public Internet sites. Such information
could be collected either on an agency’s web sites or through third-party agreements. In
response to the Act, the Office of Inspector General conducted a review with the specific
objectives of (1) identifying the Department’s policies and procedures for managing its
Internet web sites in accordance with Federal guidance, (2) determining whether the
Department’s web sites use or have entered into third-party agreements concerning the
use of cookies, and (3) determining whether all of the Department’s major web entry
points have privacy statements posted that adequately reflect what, if any, personal
information is collected on the web sites and how that information is used.

To fulfill our review objectives, we researched guidance used at the Department of State
to govern Internet privacy in accordance with Federal laws and regulations. We met with
officials from organizations across the Department to learn how they manage their public
Internet sites and whether they collect any personal information on the Internet via
cookies, third-party agreements, or other electronic means. We also tested 22
headquarters and 184 overseas Internet sites that we identified within the Department to
determine if cookies are used and whether privacy statements are posted to advise of such
practices.4 Where necessary, we followed up with responsible officials to obtain
explanations of their web management practices and plans for corrective actions.
Throughout our review, we also studied the Department’s structure for coordinating
management of web sites organizationwide.

Appendix A provides details on our methodology for testing the Department’s Internet
sites. As a part of this approach, we did not examine every page on a web site, but rather
spent a limited time navigating through each site to look for cookie indicators. We also
relied on discussions with web management officials to learn about third-party
agreements or other practices to collect information on public web sites. To validate our
treatment in the report of Internet management practices that the officials described, we
obtained comments on a draft of the report from organizations that participated in our
review. We have incorporated their comments and suggested changes where appropriate.

We also obtained written comments on a draft of this report from both the Office of the
Under Secretary for Management and the Office of the Under Secretary for Public

4
    We did not include issues related to management of the Department’s internal Intranet sites in our review.



                                                                                                            3
Diplomacy and Public Affairs. We have incorporated their comments and suggested
changes where appropriate and have included a copy of the comments at Appendix B.

We conducted our review from January to March 2001 at the Department of State in
Washington, DC. Appendix C provides a list of the Department bureaus and offices that
participated in our review. We performed our work in accordance with generally
accepted government auditing standards. Major contributors to this report were Frank
Deffer, Sondra McCauley, and John Shiffer. Comments or questions about the report can
be directed to Mr. Deffer at defferf@state.gov or at (703) 284-2715.

AUDIT FINDINGS

DEPARTMENTAL INTERNET GUIDANCE BEING ESTABLISHED

In keeping with OMB directives, the Department of State has ongoing efforts to establish
guidance for managing its public Internet sites. Specifically, on June 20, 2000, a working
group of representatives from across the organization issued a Department Notice,
Interim Guidance on Public Web Site Hosting, to establish policies for Internet access
and site hosting until the details on web systems requirements, content, security, incident
handling, and other issues could be finalized. A second notice, Policy for the Use of
“Cookie” on Department of State Web Sites, issued on September 27, 2000, as an
addendum to the Interim Guidance, establishes the presumption that cookies should not
be used on the Department’s web sites.

The working group followed up with development of Guidelines for Public Information
Dissemination on the Internet. The guidelines are designed to help ensure high quality
and consistent standards for the content, organization, and presentation of information on
the Department’s public web sites. The guidelines reiterate restrictions on Internet
cookie use, directing that bureaus, offices, or missions consult with the Bureau of
Administration for advice on cookie usage and guidance on submitting requests for such
approval to the head of the Department. The guidelines also discuss the requirement that
web sites display privacy and security notices informing users that cookies or other
means to collect data from the public are employed on the sites. The guidelines were just
recently approved in February 2001 and are awaiting release throughout the Department.
The guidelines will ultimately be institutionalized as regulatory policy in the Department
through incorporation into chapter 5, section 700, of the Foreign Affairs Manual, Internet
and Intranet Use, which is currently undergoing review.

DEPARTMENT WEB SITES DO NOT COLLECT PERSONALLY
IDENTIFIABLE DATA

The Department of State does not use its Internet sites as a means to collect personally
identifiable information on site visitors without their awareness. Our current review,
similar to prior assessments, identified instances in which persistent cookies were used on
the Department’s web sites; however, none of the cookies were used to gather data on site
visitors. In all cases, web site managers have been informed, and corrective actions are



                                                                                         4
either underway or completed. The Department has other processes to collect web
statistics, trend data, or log files for security purposes, but these processes also are not
used to track individual users over time. Given recent legislation and ongoing
discussions within the Department about potentially using the Internet to conduct
electronic business, consideration may have to be given in the future to possibly using
cookies or other means to collect personal information on web site visitors.

Cookies Generally Not Used on Department Web Sites

The Department generally does not use cookies on its public web sites. We found that of
the 206 sites that we visited and tested, 16 used cookies. Of those 16, 7 were session
cookies, which are permitted under OMB guidance. The remaining nine sites used
persistent cookies, which are not allowed under Federal guidelines without the agency
head approval. At two of those sites, the web managers knew that the persistent cookies
were being used, but did not realize they needed authorization. For the remaining seven
situations, the web managers told us they did not know that persistent cookies were being
used. Web managers are currently taking steps to remove or seek Secretary approval for
the nine persistent cookies that we discovered during our review. We found persistent
cookies at the following sites:

 Domestic
• Foreign Buildings Operations, Art in Embassies Program (aiep.state.gov)
• Diplomatic Security, Overseas Security Advisory Council (www.ds-osac.org)
• Bureau of Educational and Cultural Affairs, International Visitors Program
  (www.ivprograms.org)

    Overseas Posts
•    Namibia (www.usembassy.namib.com)
•    Belize (www.usemb-belize.gov)
•    Auckland (homepages.ihug.co.nz/~amcongen/ieindex.htm)
•    Athens (www.usisathens.gr)
•    Thessalonika (virtuals.compulink.gr/us-consulate)
•    Vladivostok (vladivostok.com/usis)

Persistent Cookies Not Used to Collect Personal Data

In all nine instances where we found persistent cookies, we found no evidence that they
were being used to collect personal data on site visitors. Specifically, on the three
domestic web sites that had cookies, the web managers used a web site development tool,
called ColdFusion. This tool automatically uses persistent cookies, which provide a
convenient way to maintain user preferences (i.e., graphics display, screen color, etc.) as
a user navigates from one web page to another during a site visit. The user’s preferences
are automatically removed from memory when the user’s session ends. Web managers
for these domestic sites stated that they were unaware that ColdFusion automatically uses
persistent cookies. As of February 21, 2001, one office had removed the cookie from its
web site, and the second office had not yet begun corrective actions. The third


                                                                                               5
organization has tentative plans to seek the Secretary of State’s approval to continue to
use the cookie. Officials told us that several other bureaus are also planning to use
ColdFusion for their web development and may not be aware that the application might
automatically place cookies on their web sites.

We notified officials from the Office of International Information Programs of instances
where we found persistent cookies on overseas web sites. The Office, which has
responsibility for coordinating and advising overseas posts concerning their public web
sites, contacted the webmasters to request explanations about the cookies and advise that
they must either remove the cookies from their web sites or seek agency head approval
for their use. Overseas web officials provided various reasons for using cookies.
Although several of the cookies had been placed by third-party contractors, the cookies
were only used for such activities as analyzing web trends, counting visitors, and
facilitating user navigation through the sites. All posts that had persistent cookies have
removed them from their sites.

Persistent Cookies Identified Prior to Office of Inspector General Review

Over the past year, the Department has had to address a number of other instances where
persistent cookies were found on its web sites. For example, in August 2000, the Office
of International Information Programs identified two overseas posts that were using
cookies placed by third-party organizations to monitor web site usage. The web
managers at both locations have deleted the cookies from their sites.

Further, in September 2000, the U.S. General Accounting Office reported on cookies
found at two of the Department’s web sites: www.usia.gov and travel.state.gov.5
According to Department officials, the United States Information Agency web site has
been shut down,6 and the cookie at the travel web site has been eliminated. More
recently, on January 26, 2001, the U.S. General Accounting Office notified the
Department that it had found a third-party cookie on a Bureau of Human Resources
recruitment site (www.state.gov/www/careers) and that there was no privacy notice
posted about cookie use. In its response, the Department stated that the cookie had been
inserted into the home page of the careers site to assess the effectiveness of banner ads
that had been purchased on other web sites to promote recruitment. The Department
stated that it was not aware that the cookie was being used and indicated that it has since
been eliminated from the web site.




5
Internet Privacy: Comparison of Federal Agency Practices With FTC’s Fair Information Principles, U.S.
General Accounting Office (GAO/AIMD-00-296R, September 11, 2000).
6
 The United States Information Agency has been merged into the Department of State and is no longer a
separate agency.



                                                                                                        6
Other Methods for Handling Personally Identifiable Data on Department Web Sites

There are several other ways in which personal data may be handled on Department of
State web sites, as permitted by Federal and Departmental Internet guidelines. For
example, for audit and security purposes, the Bureau of Diplomatic Security requires that
the Department’s web sites generate log files of when their sites are visited. The log files
do not record information on individual web users. Rather, they include information such
as Internet protocol addresses,7 time frames, and Internet service providers used to access
web sites. For example, when a visitor connects from America Online to a Department
web site, the web management system will generate information about the visitor’s web
domain (aol.com) and the date and time of the visit. The logs are amassed in large files
that are stored and secured for a period of 6 months, after which time they are destroyed.
In case of computer security incidents, such as hacker intrusions or denials of service, the
logs are turned over to security officials for investigation. The Department also uses the
logs to determine web trends, create summary statistics on what information is of most
and least interest, or identify systems performance or problem areas. Commercial
software programs are available to enable systems administrators to easily view and
analyze the logs. Officials told us that the Department began generating the logs about 2
to 3 years ago when it began increasing the number of agency web sites.

Other ways in which personal data might be handled on the Department’s web sites
include having individuals that live or travel abroad register electronically, providing
personally identifiable information to U.S. embassy and consulate web sites to facilitate
emergency communications, security preparations, or evacuations. A visitor to a
Department of State web site might also provide personal information in an e-mail
message sent through the site. When this occurs, the Department uses any information
the visitor might provide only as a means of responding to the message. In both such
instances, individuals voluntarily provide the personal information to the Department; the
information is not collected on the web site without the individuals’ knowledge. We
found that no unauthorized ways of handling personal information were used—either
directly or through third-party agreements—on the Department of State web sites that we
reviewed.

Potential Need for Persistent Cookies in the Future

Although current guidance restricts cookie use, senior Department officials told us that it
might be necessary in the future to use cookies on Internet web sites in order to improve
the quality of service to the public. For example, Section 1704 of the Government
Paperwork Elimination Act8 requires that by 2003, executive agencies provide options for
the electronic maintenance, submission, or disclosure of information, when practical, as a
substitute for paper. To comply with the legislation, agencies may find it necessary to
use cookies on their web sites. Currently, Department of State web sites only provide
7
  An Internet protocol address is a series of numbers used to identify a computer on the Internet. When
transferring data from one computer to another, both the sending and receiving Internet protocol addresses
are attached to the data packet to allow two-way communications.
8
    Government Paperwork Elimination Act, 44 USC 3504, October 1998.


                                                                                                         7
information on the Department and its services. However, in the future, the Department
plans to offer a variety of online services, such as passport applications, that may require
the use of cookies. Further, if the Department allows users to customize their view of
State web sites to display only specified information, cookies may be needed to
remember the user preferences.

    Recommendation 1: We recommend that, in accordance with established Federal
    policy and Department of State guidelines, the Under Secretary for Public Diplomacy
    and Public Affairs direct all of the Department’s bureaus, offices, and overseas
    missions to inspect their web sites to identify any persistent cookies and either
    remove them or request the Secretary’s approval for their continued use.

PRIVACY STATEMENTS NOT CONSISTENTLY POSTED ON DEPARTMENT
WEB SITES

We found that a number of Department of State organizations do not comply with
Federal and agency requirements for posting up-to-date privacy notices on their Internet
sites. The general practice is to provide a link on the initial home page that provides a
central location for various disclaimers and legal notices to cover the web site as a whole.
Additional privacy notices are also needed wherever information is collected from the
public on the web site.

However, as of early February 2001, 116 of 206--well over half of the Department’s sites
that we reviewed--had no privacy statements and therefore no means of advising users of
any information collected on the sites. Of the 90 sites that had privacy statements,

•   48 sites had their own privacy statements,
•   5 sites linked to the privacy statement at usinfo.state.gov, and
•   37 sites linked to the generic statement on the Department’s main Internet site at
    www.state.gov.

Of the 37 sites that linked to the main State Department site, only 3 referenced the current
notice. The other 34 referenced an outdated privacy statement, archived from a time
when the main site was hosted at the University of Illinois at Chicago. The Department’s
main site has been managed by UUNET, another Internet service provider, since January
2001. Webmasters that we informed of the outdated privacy notices all agreed to update
their site links.

Further, we found that the two sites that knowingly used persistent cookies did not post
adequate privacy statements to advise site visitors of this practice. As discussed above,
however, none of the persistent cookies identified were used to track or collect personal
data on individual site users.

    Recommendation 2: We recommend that the Under Secretary for Public Diplomacy
    and Public Affairs direct all Department of State organizations to examine their web
    sites to ensure that complete and up-to-date privacy statements are posted to their web



                                                                                               8
   sites, or appropriately linked to privacy statements on the primary Department web
   site, advising site visitors of any personally identifiable data that is collected, stored,
   or used by the web site for any purpose.

DECENTRALIZED MANAGEMENT STRUCTURE HINDERS
DEPARTMENTWIDE OVERSIGHT OF WEB SITES

The Department’s structure for managing its public web sites is highly decentralized in
that a number of different organizations share responsibility for guiding or controlling
various aspects of Internet management. Domestic bureaus and posts also have
considerable independence regarding how to manage and host their web sites. This
fragmented management structure may have contributed to the uneven compliance with
Internet cookie restrictions and privacy statement requirements that we found across the
Department.

Fragmented Internet Guidance, Oversight, and Control

The Department has not established a single office with responsibility for all the different
aspects of web site management organizationwide. Rather, several organizations share
this responsibility, individually providing coordination, guidance, oversight, and/or
operational support for the Department’s various public web sites.

Two organizations within the Office of Public Diplomacy and Public Affairs share
responsibility for coordinating Internet web site management at headquarters and at
overseas missions. Specifically, the Office of Electronic Information within the Bureau
of Public Affairs clears information for public dissemination on the Internet and has basic
responsibility for coordinating Internet web sites for regional and functional bureaus at
Department headquarters. This Office also operates and maintains the official primary
web access point for the Department at www.state.gov and provides content and design
guidance to organizations that publish web pages. Similarly, the Office of International
Information Programs operates and maintains the international home page for the
Department, located at usinfo.state.gov. The Office provides advice and assistance to
several local sites, but is primarily responsible for helping overseas missions set up their
own web sites. Embassies are encouraged to consult with the Office of International
Information Programs on site content and design. Neither the Office of Electronic
Information nor the Office of International Information Programs has the authority to
enforce web site management policy, including ensuring compliance with Federal and
State Department Internet privacy guidelines.

A number of other organizations provide Internet guidance and support for web sites
across the entire Department. For example, the Bureau of Diplomatic Security provides
advice on web page development to ensure that Internet sites conform with security
requirements, including the use of log files discussed above. The Bureau of Information
Resource Management provides operational support for some web sites and incorporates
Internet guidance into the Foreign Affairs Manual. Further, several organizations within
the Department, including the Office of the Legal Adviser and the Office of Records and



                                                                                                 9
Publishing Services within the Bureau of Administration, have responsibility for clearing
privacy notices and disclaimers.

Domestic Organizations and Overseas Posts Have Web Hosting Flexibility

Amid this fragmented organizational structure, the Department’s bureaus and posts have
considerable flexibility regarding how they individually manage their Internet web sites.
They have primary responsibility for complying with prescribed policies and ensuring
privacy on their Internet sites. Because there is no mandated standard, organizations can
also choose from among several web site hosting options.

Specifically, organizations can have the Department host their sites on www.state.gov,
the official primary web site run by Public Affairs. With few exceptions, these sites use a
standard “state.gov” naming convention. The Office of Electronic Information uses a
Document Management System to centrally coordinate and monitor sites that use this
naming convention. The system also facilitates update of the state.gov sites without
having to input individual code changes.

Organizations, primarily overseas missions, can also have their sites hosted under a
contract managed by the Office of International Information Programs, which sponsors
the central usinfo.state.gov home page. Like sites on the domestic www.state.gov home
page, overseas sites hosted through the Office also generally use a standard naming
convention that begins with “usembassy.state.gov.” The Office of International
Information Programs periodically examines web sites on its home page, sends out policy
reminders, and encourages regional monitoring of web sites overseas. Although the
Office has no direct Internet oversight or enforcement authority, the Office has makeshift
arrangements to monitor web sites for such things as cookies, install updates, or ensure
that no unauthorized or classified information is used on the sites. Sites under both the
central www.state.gov and the usinfo.state.gov home pages are currently hosted and
provided with Internet connectivity by UUNET.

Further, organizations can host their sites at locations within the Department, independent
of the two primary web sites. For example, some organizations have their sites hosted by
the Business Center within the Bureau of Information Resource Management on a fee-
for-service basis. Others host their web sites on their own internal web servers. Still
other organizations have contracts for web hosting through local or overseas third-party
companies. As discussed above, we found that at least one site hosted by a third-party
contractor used a persistent cookie. Organizations that host their sites independently,
either internally or externally, use a range of Internet service providers. They also use
different domain names for their Internet addresses--i.e., .org, .mil, or .com--and not just
.gov. The Department encourages organizations that independently host their web sites
to inform and consult with the Office of Electronic Information and the Office of
International Information Programs about their web sites.

Officials we interviewed expressed a variety of reasons for hosting their web sites
independent of the two primary Department of State sites. For example, some had



                                                                                         10
established their web sites before the two central home pages were in place. A few
preferred to host their own sites internally for security reasons. Others believed that it is
more efficient to have contractors externally host their sites and retain responsibility for
keeping the hardware, software, and firewall security up-to date. Still others believed
that third-party hosting provides greater capability and public access than the
Department’s two primary web pages. In the case of the overseas sites, there are some
locations where local hosting is a necessity due to either a lack of adequate bandwidth or
host government restrictions on access to sites outside of a country’s natural domain.

A number of officials told us that, because of this fragmented Internet management
structure, it is difficult to ensure that all sites are kept up-to-date or in compliance with
established Internet guidelines, such as restrictions on cookie use. Further, we found no
single consolidated list of every public web site in existence throughout the Department.
Only by visiting offices and talking with officials across the Department were we able to
identify the 206 public sites that we discuss in this report. We consequently have no
means of ensuring that we identified and included all of the Department’s public web
sites in our Internet privacy management review.

Steps Taken to Improve Departmentwide Web Site Management

The Department of State’s Internet Working Group is a first step to instituting
organizationwide control of web site management. The working group began meeting in
October 1999 to address public web security issues in the wake of an attack on one of the
Department’s overseas web sites. The working group is made up of about 30
representatives from various organizations in the Department, primarily the Bureaus of
Administration, Information Resource Management, Diplomatic Security, and Public
Affairs, and the Office of International Information Programs. The group meets
periodically to discuss web-related issues, examine Internet use, and recommend policies
to govern Internet management across the Department. It is this working group that
drafted a domain name paper for simplifying web access and developed the Guidelines
for Public Information Dissemination on the Internet. Because the working group has no
authority to issue policy, the guidelines were implemented under the auspices of the five
principal organizations represented in the group.

Given the great number of web-related issues that need attention, the Internet Working
Group recently took steps to become formally chartered as a permanent senior-level
Internet steering committee within the Department. A memorandum issued by the
working group recently transmitted a draft charter and requested approval for establishing
the committee from the five Assistant Secretaries of the previously mentioned
organizations. The memorandum suggested that the committee serve as a forum for
discussing the full range of Internet issues, including web site content and presentation,
and standardizing site-naming conventions. The memo also proposed that the committee
be charged with recommending policies and priorities for the development, management,
and operation of Internet web sites and related services Departmentwide. The Internet
Steering Committee was chartered in February 2001. To maintain continuity, the chair of
the Internet Working Group volunteered to kick off the new committee and serve as chair



                                                                                            11
for its first year. The committee chair, along with other officials we interviewed,
suggested that establishing a staff office with full-time responsibility for web policy
development, coordination, and oversight on a daily basis would also be useful to support
the work of the permanent committee.

       Recommendation 3: We recommend that the Under Secretary for Public
       Diplomacy and Public Affairs establish a small Internet Program Office to
       provide full-time, day-to-day support for the work of the Internet Steering
       Committee in coordinating and addressing public web site management issues on
       a Departmentwide basis. The Program Office should, at a minimum, be
       comprised of officials from the five principal organizations represented on the
       Internet Steering Committee. Program Office responsibilities should include, but
       not be limited to:

       •   coordinating with and supporting the activities of the Internet Steering
           Committee to carry out its web site policy responsibilities;
       •   developing and/or updating internal policies, guidelines, and standards
           adopted by the committee to govern the Department’s web sites in accordance
           with Federal guidelines;
       •   providing advice and assistance to the Department’s bureaus, offices, and
           missions regarding web site content and design;
       •   maintaining a complete and up-to-date inventory of all of the Department’s
           domestic and overseas web sites and their site hosting arrangements;
       •   monitoring the Department’s web sites to ensure that they are kept up-to-date
           and in compliance with established web management guidelines and
           standards;
       •   referring web sites found noncompliant with established guidelines and
           standards to the attention of the Office of the Under Secretary for Public
           Diplomacy and Public Affairs, along with recommendations for corrective
           action; and
       •   identifying and promoting the use of best practices in web site management
           across the Department.

DEPARTMENT COMMENTS AND OUR EVALUATION

The Office of the Under Secretary for Management and the Office of the Under Secretary
for Public Diplomacy and Public Affairs provided written comments on a draft of our
report. Copies of their comments are included in Appendix B. The Office of the Under
Secretary for Public Diplomacy and Public Affairs generally agreed with our first two
recommendations about ensuring that Department of State organizations comply with
web site management requirements, such as restrictions on cookie use and requirements
on posting privacy statements. Specifically, this office stated that the Department should
continue its interbureau collaborative approach through the Internet Steering Committee
and proposed that the committee notify all bureaus and posts on how to fully comply with
these regulations. The office further stated plans to have International Information
Programs and Public Affairs--its organizations with primary responsibility for


                                                                                       12
Department public web site coordination--supply staff resources in the short term to
monitor and provide committee guidance to help ensure compliance with the immediate
OMB requirements. We recognize recent preparations along these lines to disseminate
the Guidelines for Public Information Dissemination on the Internet to all diplomatic and
consular posts. We also support the office’s ongoing commitment to providing much-
needed oversight to help ensure compliance with existing Federal web management
guidance.

However, the Office of the Under Secretary for Management and the Office of the Under
Secretary for Public Diplomacy and Public Affairs expressed varying concerns with our
third recommendation about establishing an Internet Program Office. For example, the
Office of the Under Secretary for Public Diplomacy and Public Affairs recognized the
need for more systematic oversight of the Department’s public Internet sites and
acknowledged that this might require staffing, as our recommendation suggests.
However, the office preferred to work out this matter and allocate resources jointly with
the Office of Management once the Internet Steering Committee is in place and its
function better defined. We believe this to be a reasonable approach and acknowledge
that the offices involved must have flexibility to establish the Internet Program Office as
they deem appropriate. We also agree that the Internet Steering Committee is the correct
forum for collaboratively finalizing such arrangements. However, to ensure
Departmentwide involvement, we reemphasize our recommendation that the Program
Office be comprised of officials from all principal organizations represented on the
Internet Steering Committee—not just the Office of the Under Secretary of Management
and the Under Secretary of Public Diplomacy and Public Affairs. Given the inconsistent
compliance we found with Internet policy guidelines, we also encourage that steps be
taken as soon as possible to establish the Program Office and that this matter not be
prolonged beyond the FY 2002 budget planning cycle--the time frame that the Office of
the Under Secretary for Public Diplomacy and Public Affairs suggested.

In contrast, the Office of the Under Secretary for Management disagreed with the need
for an Internet Program Office. This office stated that our proposal for establishing such
an organization conflicts with current thought on reform and delayering of the
Department’s Management structure. In the office’s view, creation of such a Program
Office constituted appointment of an “Internet Czar,” which would adversely affect the
Department’s use of the Internet. We disagree. Our report does not advocate
establishing a central, high-level office to police Departmentwide Internet management.
Rather, we recommend establishing a working level office to support the activities of the
Internet Steering Committee, representing multiple organizations across the Department.
Our recommendation is based upon our own observations, as well as comments by a
number of officials that we interviewed, concerning the Department’s need for a full-
time, operational body to provide day-to-day assistance for web site design and
maintenance, as well as monitoring and advice to help ensure compliance with
established web guidelines.

The Office of the Under Secretary for Management was also concerned that we had
addressed our report recommendations only to the Under Secretary for Public Diplomacy



                                                                                         13
and Public Affairs, countering that a number of organizations across the Department have
responsibility for various aspects of Internet management and policy guidance. The
office suggested that we address our recommendations to both Under Secretaries jointly.
Again, we disagree. We recognize the Department’s decentralized structure for web
management and discuss this issue in detail in our report. Nonetheless, we believe that
we have appropriately directed our report because our recommendations involve posting
of privacy notices and use of cookies, issues closely related to web content and design,
which currently fall under the purview of the Office of the Under Secretary for Public
Diplomacy and Public Affairs. Specifically, the Bureau of Public Affairs and the Office
of International Information within the Office of the Under Secretary for Public
Diplomacy and Public Affairs currently have responsibility for coordinating and
providing advice on web site management at headquarters and overseas posts. They also
monitor web site content--albeit at times in a makeshift, collateral manner, as discussed
in our report. As such, the Office of the Under Secretary for Public Diplomacy and
Public Affairs is in the best position to lead the rest of the Department in ensuring much-
needed web oversight.

Finally, the Office of the Under Secretary for Management stated that the scope of our
review went beyond the requirements of Section 646 of the Treasury and General
Government Appropriations Act, 2001, in addressing issues concerning the Department’s
decentralized management structure. We recognize that our report moves beyond the
statutory requirements and discuss this in the purpose, scope, and methodology section of
our report. We believed it necessary to discuss the Internet privacy management
problems we found, and to determine why these problems occurred. As we assert in our
report, it is the Department’s fragmented management structure that may have
contributed to unauthorized use of Internet cookies and inconsistent posting of privacy
statements on Department of State web sites.




                                                                                         14
                                                                                          APPENDIX A

                              WEB SITE TEST METHODOLOGY


We reviewed the 22 domestic and 184 overseas Internet web sites that we identified
within the Department from January 30 through February 27, 2001. Our review entailed
navigating through the web pages within each site--generally spending 3 to 10 minutes
per site--to determine whether the site used cookies and posted a privacy statement
advising of this practice and any other automated activities to collect personal data. To
determine cookie use on the web site, we first had to change the security settings on
Microsoft’s Internet Explorer so that the browser would prompt us if web sites tried to
place cookies on our computer. For each web site visited, we printed a copy of the site’s
home page, privacy statement, and any cookie notification9 that appeared. We also
examined the cookie notification to determine whether session or persistent cookies were
used. Figure 1 below provides an example of a persistent cookie notification.

                  Figure 1: Sample Persistent Cookie Notification




                 Because this cookie does not expire
                 until 2010, it is a persistent cookie.


9
  Such cookie notifications do not adequately fulfill OMB requirements to post clear, conspicuous privacy
statements at major web entry points to reflect what, if any, personal information is collected on web sites
and how that information is used.


                                                                                                           15
16
17
18
                                                            APPENDIX C

          ORGANIZATIONS THAT PARTICIPATED IN OUR REVIEW


Bureau of Administration

Bureau of Consular Affairs

Bureau of Diplomatic Security

Bureau of Educational and Cultural Affairs

Bureau of Information Resource Management

Bureau of Intelligence and Research

Bureau of Nonproliferation

Bureau of Political-Military Affairs

Bureau of Public Affairs

International Cooperative Administrative Support Services

Office of International Information Programs

Office of the Legal Adviser

Office of the Procurement Executive




                                                                    19
